CERTIFICATE OF COMPLIANCE
Case No. 20-827
Caption: United States of America v. Husayn
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 7,844 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 20, 2021

Nadia Oswald-Hamid
Record Press, Inc.

Sworn to before me on
August 20, 2021
JASMINE WILLIAMS

Notary Public, State of New York
No. 01WI6397949
ualified in Queens County
ssion Expires Se ember 16, 202~

~

